<html>
<title> - TRANSPARENCY AND FEDERAL MANAGEMENT IT SYSTEMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
             TRANSPARENCY AND FEDERAL MANAGEMENT IT SYSTEMS
=======================================================================


                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION

                POLICY, INTERGOVERNMENTAL RELATIONS AND

                           PROCUREMENT REFORM

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2011

                               __________

                           Serial No. 112-83

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
71-984                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Technology, Information Policy, Intergovernmental 
                    Relations and Procurement Reform

                   JAMES LANKFORD, Oklahoma, Chairman
MIKE KELLY, Pennsylvania, Vice       GERALD E. CONNOLLY, Virginia, 
    Chairman                             Ranking Minority Member
JASON CHAFFETZ, Utah                 CHRISTOPHER S. MURPHY, Connecticut
TIM WALBERG, Michigan                STEPHEN F. LYNCH, Massachusetts
RAUL R. LABRADOR, Idaho              JACKIE SPEIER, California
PATRICK MEEHAN, Pennsylvania
BLAKE FARENTHOLD, Texas

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 14, 2011....................................     1
Statement of:
    Kundra, Vivek, Federal Chief Information Officer, Office of 
      Management and Budget; Roger Baker, Assistant Secretary for 
      Information and Technology, U.S. Department of Veterans 
      Affairs; Lawrence Gross, Deputy Chief Information Officer, 
      U.S. Department of the Interior; Owen Barwell, Acting Chief 
      Financial Officer, U.S. Department of Energy; and Joel 
      Willemssen, Managing Director of Information Technology 
      Issues, Government Accountability Office...................     7
        Baker, Roger.............................................    17
        Barwell, Owen............................................    27
        Gross, Lawrence..........................................    22
        Kundra, Vivek............................................     7
        Willemssen, Joel.........................................    36
Letters, statements, etc., submitted for the record by:
    Baker, Roger, Assistant Secretary for Information and 
      Technology, U.S. Department of Veterans Affairs, prepared 
      statement of...............................................    19
    Barwell, Owen, Acting Chief Financial Officer, U.S. 
      Department of Energy, prepared statement of................    29
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............     5
    Gross, Lawrence, Deputy Chief Information Officer, U.S. 
      Department of the Interior, prepared statement of..........    23
    Kundra, Vivek, Federal Chief Information Officer, Office of 
      Management and Budget, prepared statement of...............     9
    Lankford, Hon. James, a Representative in Congress from the 
      State of Oklahoma, prepared statement of...................     2
    Willemssen, Joel, Managing Director of Information Technology 
      Issues, Government Accountability Office, prepared 
      statement of...............................................    38


             TRANSPARENCY AND FEDERAL MANAGEMENT IT SYSTEMS

                              ----------                              


                        THURSDAY, JULY 14, 2011

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and Procurement Reform,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:48 p.m. in 
room 2157, Rayburn House Office Building, Hon. James Lankford 
(chairman of the subcommittee) presiding.
    Present: Representatives Lankford, Farenthold and Connolly.
    Also present: Representative Issa.
    Staff present: Will L. Boyington, staff assistant; Hudson 
T. Hollister, counsel; Tegan Millspaw, research analyst; Peter 
Warren, legislative policy director; Christine Martin, staff 
assistant; Jaron Bourke, minority director of administration; 
Amy Miller, minority professional staff member; and Cecelia 
Thomas, minority counsel/deputy clerk.
    Mr. Lankford. Committee will come to order.
    This is a hearing on Transparency and Federal Management of 
IT Systems of the Oversight and Government Reform Committee.
    We exist to secure two fundamental principles. First, 
Americans have a right to know that the money Washington takes 
from them is well spent. And second, Americans deserve an 
efficient and effective government that works for them. Our 
duty on the Oversight and Government Reform Committee is to 
protect these rights and it is our solemn responsibility to 
hold government accountable to taxpayers because taxpayers do 
have a right to know what they get from their government.
    We have worked and will work tirelessly in partnership with 
citizen watchdogs to deliver the facts to the American people 
and bring genuine reform to Federal bureaucracy. This is the 
mission of the Oversight and Government Reform Committee.
    I am going to submit my opening statement for the record.
    [The prepared statement of Hon. James Lankford follows:]
    [GRAPHIC] [TIFF OMITTED] 71984.001
    
    [GRAPHIC] [TIFF OMITTED] 71984.002
    
    Mr. Lankford. As the ranking member has also chosen to do, 
is that correct?
    Mr. Connolly. That is correct, Mr. Chairman.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]
[GRAPHIC] [TIFF OMITTED] 71984.003

    Mr. Connolly. I just want to join you in welcoming our 
panel and also particularly, Mr. Vivek Kundra who is, 
unfortunately, going to be leaving Federal service. I have 
known Vivek for a long time and he has provided very visionary 
leadership in the Federal Government. I certainly hope his good 
work will not be discarded but in fact attended to because I 
think he set us on the right path in terms of U.S. technology 
policy.
    Thank you. And with that I'll also submit my full statement 
for the record.
    Mr. Issa. Mr. Chairman, could I have just a moment?
    Mr. Lankford. You most certainly may. I recognize the 
chairman of the full committee.
    Mr. Issa. I only came up to make a quorum but if this is 
the last time we get you on the cheap because somebody is going 
to scrape you out and pay you what you are worth, then we will 
miss you. Hopefully, you will still come back in some new role 
because you have been a great bipartisan friend to the 
committee.
    Mr. Kundra. Thank you for your kind words.
    Mr. Issa. You deserve that and more.
    I will come back later on but thank you, Mr. Chairman.
    Mr. Lankford. Thank you.
    With that, all Members may have 7 days to submit opening 
statements and extraneous material for the record.
    I would like to now welcome our panel of witnesses. We have 
already spoken several times already about Mr. Vivek Kundra. He 
is the Chief Information Officer at the Office of Management 
and Budget, and the first time the Federal Government has had 
that, so you get to be the pacesetter. As I mentioned to you 
earlier, that is always the person who does the greatest amount 
of work. Everyone else builds on your work from here on out.
    Mr. Roger Baker, Chief Information Officer of the 
Department of Veterans Affairs. Thank you for being here. Mr. 
Lawrence Gross is Deputy Chief Information Officer of the 
Department of the Interior. Mr. Owen Barwell, Acting Chief 
Financial Officer of the Department of Energy. Mr. Joel 
Willemssen is Managing Director of Information Technology 
Issues at the Government Accountability Office [GAO].
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. If you would please rise and raise your 
right hands. Thank you gentlemen.
    [Witnesses sworn.]
    Mr. Lankford. Let the record reflect that all witnesses 
answered in the affirmative. You may be seated.
    In order to allow time for discussion, I will ask you to 
limit your testimony to 5 minutes. There is a countdown clock 
in front of you with which I am sure all of you are familiar 
with. It will count down from five to zero. If you go a little 
bit over, we will be fine with that.
    As I mentioned to everyone before, we do have votes that 
will be called sometime in the middle of this afternoon and we 
are going to honor your time as much as we possibly can and to 
be able to get straight to questions as quickly as we can and 
hopefully get a chance to get this hearing finished.
    With that, I would like to recognize Mr. Kundra for 5 
minutes.

STATEMENTS OF VIVEK KUNDRA, FEDERAL CHIEF INFORMATION OFFICER, 
    OFFICE OF MANAGEMENT AND BUDGET; ROGER BAKER, ASSISTANT 
 SECRETARY FOR INFORMATION AND TECHNOLOGY, U.S. DEPARTMENT OF 
  VETERANS AFFAIRS; LAWRENCE GROSS, DEPUTY CHIEF INFORMATION 
OFFICER, U.S. DEPARTMENT OF THE INTERIOR; OWEN BARWELL, ACTING 
 CHIEF FINANCIAL OFFICER, U.S. DEPARTMENT OF ENERGY; AND JOEL 
WILLEMSSEN, MANAGING DIRECTOR OF INFORMATION TECHNOLOGY ISSUES, 
                GOVERNMENT ACCOUNTABILITY OFFICE

                   STATEMENT OF VIVEK KUNDRA

    Mr. Kundra. Good afternoon, Chairman Lankford, Ranking 
Member Connolly and members of the subcommittee.
    Thank you for the opportunity to testify on the 
administration's ongoing efforts to move the government to a 
more open, transparent and participatory entity.
    Over the last 2\1/2\ years, our efforts to shine light on 
government operations have taught us 10 key principles that we 
must apply as we scale transparency across all Federal 
spending. I would like to talk about these key lessons that 
we've learned.
    Number one, that we must build end-to-end digital systems 
to reduce errors and protect the integrity of the data across 
the Federal enterprise.
    Number two, build once, use often. Across the Federal 
Government, there are over 12,000 major IT systems with 
thousands and thousands of data bases behind those systems. 
That leads to the complexity of the enterprise which is the 
U.S. Government and some of the issues around data quality.
    Number three, tap into the golden sources of data. What I 
mean by that is that we shouldn't be relying on derivative data 
bases, data derived from other data sources and massaged, but 
we should go directly to the very transactional systems that 
are used to do business on a day to day basis.
    Number four, release data in machine readable formats and 
encourage third party applications. Washington doesn't have a 
monopoly on the best ideas and we have seen what happens when 
you democratize data. You have the ability to get innovation in 
ways that were structurally impossible before.
    Number five, employ common data standards. Think about what 
would have happened if railroads across the country had 
different standards in terms of railroad track gauges. We 
wouldn't have had the impact we had during the industrial 
revolution and the transcontinental railroad that created so 
many jobs and opportunities and created innovation across the 
board. In the same way, data and having common data standards 
is vital as we think about transparency.
    Number six, use simple, upfront data validations. If you go 
back in time and think of recovery.gov in the early days, there 
were phantom congressional districts because data wasn't 
validated upfront. A simple data validation upfront would have 
prevented phantom congressional districts from being entered to 
begin with.
    Number seven, release data as close to real time as 
possible. If you think about some of the innovations and 
applications in the ecosystem that have been developed such as 
mobile apps that allow you to see, on a real-time basis landing 
of flights across the country, allowing the American people to 
make decisions based on that data, it is because that data is 
real time. In the same way, when it comes to transparency, we 
should be able to get data on a real-time basis as someone is 
charging or conducting a transaction on a credit card all the 
way to procurement.
    Number eight, engineer systems to reduce burden. It is 
critical to make sure that as we think about transparencies, we 
look at this $3.7 trillion model in terms of how do we shine 
light on all of that funding, that we make sure we are not 
creating more burdens. A simple example, when it comes to 
student aid applications, is that the IRS and Department of 
Education decided to share data, therefore we were able to 
eliminate about 70 questions that students had to fill because 
that data was already prepopulated.
    Number nine, protect privacy and security. This is critical 
especially in the age of Facebook and Twitter which is that you 
can create a mosaic effect without really thinking about it. It 
is one thing to release data, for example, when it comes to 
health care at a State level; it is another thing to release it 
at a zip code level. In rural parts of the country, there may 
be one person who has that condition and you could tie that to 
a Facebook account. So we have to be vigilant when it comes to 
protecting the privacy of the American people and also national 
security.
    Number 10, provide equal access to data and incorporate 
user feedback on an ongoing basis.
    These 10 principles are grounded in the work we have done 
and the hard lessons we have learned. I would like to share 
three examples of what is possible by making government more 
open, transparent and participatory.
    Number one, when we looked at the $80 billion we spent on 
information technology, we launched an IT Dashboard and parked 
online the picture of every CIR right next to the IT project 
they were responsible for. The results were we were able to 
reduce the budget of poorly performing IT projects by $3 
billion.
    Number two, by launching Recovery.gov, what we've seen is 
an unprecedented low level of fraud, waste and abuse below 0.6 
percent.
    Number three, by launching Data.gov, we started with 47 
datasets in May 2009. Today, we have over 390,000 datasets on 
every aspect of government operations and 29 States have 
followed this model, 11 cities, and 21 countries. But what we 
have seen is applications being developed that somebody in 
Washington couldn't have even imagined.
    This committee has long recognized the importance of an 
open, transparent government and I appreciate its ongoing 
support for these efforts. Going forward, it will take all of 
us, Congress, the executive branch agencies, and recipients of 
Federal funds working together, to deliver on an open 
government that works for all Americans.
    Thank you very much for the opportunity to testify. I look 
forward to any questions you may have.
    [The prepared statement of Mr. Kundra follows:]
    [GRAPHIC] [TIFF OMITTED] 71984.004
    
    [GRAPHIC] [TIFF OMITTED] 71984.005
    
    [GRAPHIC] [TIFF OMITTED] 71984.006
    
    [GRAPHIC] [TIFF OMITTED] 71984.007
    
    [GRAPHIC] [TIFF OMITTED] 71984.008
    
    [GRAPHIC] [TIFF OMITTED] 71984.009
    
    [GRAPHIC] [TIFF OMITTED] 71984.010
    
    [GRAPHIC] [TIFF OMITTED] 71984.011
    
    Mr. Lankford. Thank you.
    Mr. Baker, you are recognized for 5 minutes.

                    STATEMENT OF ROGER BAKER

    Mr. Baker. Thank you, Chairman Lankford, Ranking Member 
Connolly and members of the subcommittee, thank you for 
inviting me to testify alongside my colleagues today.
    As the Assistant Secretary for Information and Technology, 
the VACIO is uniquely positioned for a Federal CIO, controlling 
all IT resources and staff at the Federal Government's second 
largest department. In effect, the VACIO runs a $3 billion IT 
services company, with its primary customers being the Health 
and Benefits Administrations at the VA.
    In this role and as the former CEO of a private sector 
company, I bring an operational perspective to today's hearing. 
Since my confirmation in 2009, I have been a strong supporter 
of this administration's efforts to eliminate wasteful spending 
and implement real transparency in the way we do business.
    Over the last 2 years, we have focused on running the VA IT 
organization like a company, driving the fiscal and IT process 
disciplines necessary to dramatically improve cost efficiency, 
reliability and customer satisfaction. In that effort, one of 
the key challenges has been the difference in financial 
management approaches between the private and the public 
sectors.
    As a private sector CEO, I became accustomed to a constant 
flow of data regarding revenue, costs and cash-flow that 
provided an effective means for monitoring, measuring and 
forecasting the performance of projects, programs and business 
units within my organization. Effective cost accounting and 
strong financial management systems are the lifeblood of 
companies that must compete on a daily basis just to stay in 
business.
    While the private sector is concerned with revenue, 
expenditures and cash-flow, the public sector focuses on 
appropriations and obligations. This results in core financial 
systems that, while performing exactly as intended, simply are 
not designed to provide the type of detailed, real time cost 
data necessary to effectively manage a business. To draw an 
analogy, managing IT projects using Federal financial systems 
is the equivalent of crossing Pennsylvania Avenue using a 
photograph taken 30 days ago.
    Transparency, and particularly the IT Dashboard, has 
provided broad visibility to this problem. As the GAO aptly 
points out, the information VA systems originally provided to 
the IT Dashboard was frequently old or inaccurate. Of greater 
concern to me was that that information was precisely what was 
being used by IT managers and department leadership to manage 
our IT projects.
    With strong encouragement from OMB and from VA's Deputy 
Secretary, we have implemented both short term and longer term 
projects to address these issues, including implementing 
several new systems that will better track actual costs, 
including labor hours at the project level.
    The President's call for more transparency in government 
and this committee's work are important to making our 
government run better. Especially in these economic times, it 
is critical that our financial management systems provide clear 
and accurate data that is as transparent as possible.
    VA will continue to strive to excel at both management 
efficiency and transparency and build on the successes of our 
existing strong management and transparency efforts.
    Again, thank you, Mr. Chairman, Mr. Ranking Member and 
committee members, once again, for the opportunity to be here 
today.
    [The prepared statement of Mr. Baker follows:]
    [GRAPHIC] [TIFF OMITTED] 71984.012
    
    [GRAPHIC] [TIFF OMITTED] 71984.013
    
    [GRAPHIC] [TIFF OMITTED] 71984.014
    
    Mr. Lankford. Thank you, Mr. Baker.
    Mr. Gross, you are recognized for 5 minutes.

                  STATEMENT OF LAWRENCE GROSS

    Mr. Gross. Thank you, Chairman Lankford and members of the 
subcommittee.
    I appreciate the opportunity to appear before you today to 
present the Department of Interior's efforts to improve 
transparency through technology improvements and financial data 
standardization.
    I am Lawrence Gross, and I am Deputy Chief Information 
Officer at the Department of the Interior. If I may, I would 
like to submit our full statement for the record and summarize 
our testimony.
    Mr. Chairman, members of the committee, the Department of 
Interior has a unique public facing mission, that of protecting 
America's great outdoors and empowering our future. The 
Department protects America's natural resources and heritage, 
honors our cultures and tribal communities and supplies the 
energy to power our future.
    In order to meet this unique mission requirement and 
engender the public trust now and into the future, cost 
effective, fully integrated, 21st Century technology must play 
a central role. The Department recognizes the critical role 
that technology and information quality plays in meeting our 
mission and as a result, have taken aggressive steps to provide 
21st Century technologies to the Department employees and to 
improve the access and quality of data to the public.
    Specifically, the Department has three major initiatives 
that will, over the next few years, retire duplicative 
financial management and reporting systems by moving forward to 
continue to retire and integrate enterprise-wide financial 
management systems. Specifically, we will be deploying the 
financial management business system; second, we will be 
modernizing our information technology infrastructure through 
our recently launched, self-funded IT modernization initiative, 
which we anticipate will result in savings to the public of 
$500 million over a 4-year period; and third, an alignment with 
the Office of Management and Budget TechStat process, we have 
implemented a vigorous governance process that we call within 
DOI, IStat.
    This process will improve the management and oversight of 
the Department's IT investment portfolio. Mr. Chairman, the 
Department fully understands the budget environment and we are 
confident that these initiatives will contain costs and 
significantly improve the Department's ability to meet its 
mission and to fulfill the demands of the public for 
transparent access into the operations of the Department.
    I welcome any questions you or members of the committee may 
have. Thank you.
    [The prepared statement of Mr. Gross follows:]
    [GRAPHIC] [TIFF OMITTED] 71984.015
    
    [GRAPHIC] [TIFF OMITTED] 71984.016
    
    [GRAPHIC] [TIFF OMITTED] 71984.017
    
    [GRAPHIC] [TIFF OMITTED] 71984.018
    
    Chairman Lankford. Thank you, Mr. Gross.
    Mr. Barwell, you are recognized for 5 minutes.

                   STATEMENT OF OWEN BARWELL

    Mr. Barwell. Good afternoon, Mr. Chairman, Ranking Member 
Connolly, and members of the subcommittee.
    Thank you for the opportunity to speak about the Department 
of Energy's business systems. I would like to start by 
providing a brief overview of them.
    In January 2003, the Department launched the Integrated 
Management Navigation System, now known as iManage, to 
consolidate, standardize and streamline the Department's 
business and finance systems and processes. The functions and 
scope of this effort include finance and cost accounting, 
travel, payroll, budget formulation and execution, procurement 
and contracts management, facilities management, human capital 
and information management.
    Today, the strategic objectives for iManage are connecting 
our people, simplifying our work and liberating our data, and 
we continue to work to improve financial and business systems 
and to use these systems to provide greater transparency in 
support of Presidential priorities.
    The full suite of systems was substantially deployed in 
2008. Since then, the iManage program has continued to invest 
in software upgrades and operational performance improvements 
pursuant to an integrated enterprise architecture. The core of 
our business systems is the iManage Data Warehouse, IDW, the 
central data warehouse that links common data elements from 
each of the Department's corporate business systems.
    IDW serves as a knowledge bank of information about 
programs and projects including budget execution, accumulated 
costs, performance achieved and critical milestones met. As a 
key component of the iManage program, the Department relies 
heavily on IDW for executive management and operational 
reporting, as well as for external requests for data.
    While our work is not done, I think it is important to 
recognize our accomplishments in deploying and integrating 
these systems and tools. For example, one of the key outcomes 
of implementing the STARS Accounting System has been that the 
Department has received a clean audit opinion since fiscal year 
2007 based on the consolidated financial statements generated 
by STARS.
    Also, since 2008 when STRIPES, our procurement system, 
first came online, the Department had made 29,000 separate 
grant awards totaling $40 billion, including significant 
funding under the American Recovery and Reinvestment Act. 
During that same time, the Department has also made 67,000 
contract actions worth a total of $47 billion.
    The real test of these systems came in implementing the 
Recovery Act, providing transparency of our performance through 
recovery.gov. We helped over 4,500 Recovery Act recipients 
submit quality and accurate information into 
FederalReporting.gov for public viewing. The information was 
also cross-checked internally using our business intelligence 
tools to identify and address any data quality issues.
    The advantage of having STRIPES fully deployed has been the 
increased speed and accuracy of procurement as well as 
increased vendor participation. By enhancing the integration 
and interoperability of our acquisition and financial systems, 
workload performed by the financial personnel was reduced and 
in some cases, eliminated.
    In addition to these accomplishments, I would like to 
highlight our integration with governmentwide corporate 
systems. While an ongoing effort, it is important to note that 
the Department's deployment of iManage has taken the need for 
governmentwide systems' interoperability into account.
    STARS, our accounting system, is fully integrated with 
governmentwide financial reporting systems, FACTS I and FACTS 
II operated by the Department of the Treasury. Our Funds 
Distribution System uploads information directly to the Office 
of Management and Budget's MAX system to expedite 
apportionments. STRIPES interfaces with governmentwide 
procurement systems, including Grants.gov, FedConnect, Federal 
Business Opportunities and USASpending.gov.
    As I have mentioned, the Department's efforts to improve 
its financial systems is unfinished business and challenges 
associated with implementing systems, business processes and 
organizational changes remain. With each successive system 
upgrade or integration effort, we learn from our experience and 
apply the lessons we have learned in a rigorous and systematic 
way to increase the likely success of what we do.
    To address these challenges, the Department is working to 
continue to improve the capability, integration and 
transparency of our systems within the constraints of the 
Department's resources. iManage 2.0, the second generation of 
the program now being deployed, is shifting much of its focus 
from collecting and storing data to analytical and other value-
added functionality to support the Department's mission.
    Mr. Chairman, Ranking Member Connolly and members of the 
subcommittee, I am pleased to be here today representing the 
Department of Energy and I am pleased to answer any questions 
that you may have.
    [The prepared statement of Mr. Barwell follows:]
    [GRAPHIC] [TIFF OMITTED] 71984.019
    
    [GRAPHIC] [TIFF OMITTED] 71984.020
    
    [GRAPHIC] [TIFF OMITTED] 71984.021
    
    [GRAPHIC] [TIFF OMITTED] 71984.022
    
    [GRAPHIC] [TIFF OMITTED] 71984.023
    
    [GRAPHIC] [TIFF OMITTED] 71984.024
    
    [GRAPHIC] [TIFF OMITTED] 71984.025
    
    Mr. Lankford. Thank you, Mr. Barwell.
    Mr. Willemssen, you are now recognized for 5 minutes.

                  STATEMENT OF JOEL WILLEMSSEN

    Mr. Willemssen. Thank you, Mr. Chairman, Ranking Member 
Connolly and Congressmen. Thank you for inviting us to testify 
today.
    As requested, I will briefly summarize our statement on two 
OMB Web sites, the IT Dashboard and USASpending.
    OMB's IT Dashboard displays detailed information on about 
800 major Federal IT investments, including assessments of 
actual performance against cost and schedule targets. For 
example, as of March 2011, the Dashboard had slightly over 300 
major investments in need of attention. Specifically, 272 
investments representing $17.7 billion in fiscal year 2011 
spending were rated as yellow and needing attention, and 39 at 
about 2 billion were rated as red with significant concerns.
    Looking at the site yesterday, we note that since March, 
the dollar figures for yellow ratings decreased by about $4 
billion, but the red ratings, meaning significant concerns, 
nearly doubled from 2 billion to 3.8 billion.
    As noted by the Federal CIO, the Dashboard has greatly 
improved transparency of IT investment performance. However, 
our reviews have also found that the data on the Dashboard are 
not always accurate. Specifically, in reviews of selected 
investments from 10 agencies, the Dashboard ratings were not 
always consistent with agency performance data.
    To address these issues, we made recommendations to the 
agencies to comply with OMB's guidance to standardize activity 
reporting, to provide complete and accurate data to the 
Dashboard on a monthly basis, and to ensure that CIO ratings 
disclose issues that could undermine the accuracy of investment 
data. We also made several recommendations for improvements to 
OMB.
    Drawing on the information provided by the Dashboard, OMB 
has initiated efforts to improve the management of IT 
investments needing attention. According to OMB, these efforts 
have enabled the government to improve or terminate IT projects 
experiencing problems and along with other OMB reviews, have 
resulted in a $3 billion reduction in life cycle costs.
    Our recent and ongoing work has identified other 
opportunities for using the Dashboard to increase efficiencies 
and savings. For example, the Dashboard showed that as of 
yesterday, Federal agencies were investing in hundreds of 
systems with similar functions such as over 600 human resource 
management systems costing an estimated $2.45 billion for 
fiscal year 2011 and almost 100 public affairs systems at about 
$226 million for FY-11.
    While the Dashboard focuses on IT investments, OMB has 
another reporting mechanism, USASpending.gov, that provides 
detailed information on Federal awards such as contracts, loans 
and grants. Last year, we reported on this Web site. Among our 
findings was that in a random sample of 100 awards, numerous 
inconsistencies existed between USASpending and the records 
provided by the awarding agencies.
    Each of the 100 awards had at least one required data field 
that was blank or inconsistent with agency records. These 
errors could be attributed in part to a lack of specific OMB 
guidance on how agencies should fill in certain fields and how 
they should validate their data submissions. Accordingly, we 
recommended that OMB include all required data on the site and 
share complete reporting and clarify verification guidance.
    OMB subsequently issued guidance to improve the quality of 
the data, although we have not subsequently gone in and tested 
a sample of that data against underlying agency records.
    That concludes the summary of my statement and I look 
forward to your questions.
    Thank you.
    [The prepared statement of Mr. Willemssen follows:]
    [GRAPHIC] [TIFF OMITTED] 71984.026
    
    [GRAPHIC] [TIFF OMITTED] 71984.027
    
    [GRAPHIC] [TIFF OMITTED] 71984.028
    
    [GRAPHIC] [TIFF OMITTED] 71984.029
    
    [GRAPHIC] [TIFF OMITTED] 71984.030
    
    [GRAPHIC] [TIFF OMITTED] 71984.031
    
    [GRAPHIC] [TIFF OMITTED] 71984.032
    
    [GRAPHIC] [TIFF OMITTED] 71984.033
    
    [GRAPHIC] [TIFF OMITTED] 71984.034
    
    [GRAPHIC] [TIFF OMITTED] 71984.035
    
    [GRAPHIC] [TIFF OMITTED] 71984.036
    
    [GRAPHIC] [TIFF OMITTED] 71984.037
    
    [GRAPHIC] [TIFF OMITTED] 71984.038
    
    [GRAPHIC] [TIFF OMITTED] 71984.039
    
    [GRAPHIC] [TIFF OMITTED] 71984.040
    
    [GRAPHIC] [TIFF OMITTED] 71984.041
    
    [GRAPHIC] [TIFF OMITTED] 71984.042
    
    Mr. Lankford. Thank you.
    And with that, I recognize myself for 5 minutes to begin.
    Let me talk through several issues here.
    Mr. Kundra, let me start off and I am going to run through 
your list of 10 is a great list and it is a good thing to be 
able to pass on to the person that's after you. Let me just 
mention a couple of things on it.
    Six and seven on that validating data upfront and releasing 
data in real time seem to be conflicting at times. When you 
have to validate data, obviously that slows the process down 
and you've got to get it out in real time, and so that seems a 
challenge.
    You and I spoke before about my priorities on data from the 
Federal Government and that is that the American people get a 
chance to see it as fast as possible and as accurate as 
possible. That puts six and seven right there together on your 
list. Whether that be USASpending, whether that be Grants.gov, 
whatever it may be, Data.gov, they get a chance to see the 
information, see it as complete as they can, can research it, 
cross it, everything else they need to be able to do.
    The second aspect of our data, to me, that is very 
important is for the decisionmakers, whether they be in the 
agency or legislators, whoever it may be, that's going to make 
a decision, it has to be accurate and complete. How do we 
accomplish six and seven? Do you have ideas you can pass on and 
say where does the priority land between validating data 
upfront and releasing data in real time?
    Mr. Kundra. Absolutely, when I talk about validating data 
upfront, what I mean by that is the example I used as far as 
congressional districts were concerned, which is that there is 
no need for people to go in and enter that information if they 
can just do a drop down. It is how you would actually architect 
and engineer systems.
    But, the preferred path would be that people don't actually 
have to enter data if that data is available in another source. 
This is a challenge that I faced when I used to work in the 
Commonwealth of Virginia for the Governor and we were building 
a small Women and Minority Dashboard. Part of it was that 
everybody was asking agencies for the data, and I asked a very 
simple question, can't we just go to the credit card companies 
and actually get the data directly from them. We know that data 
is being generated and credit card data is actually stored 
there, why do we have to actually ask people to self report.
    That not only reduced the burden but it actually also 
allowed us to get real data. It wasn't people saying this is 
what I did, but it's data that we were getting directly from 
the very data bases that stored it. So, with six where we are 
talking about the validation upfront, what that allows you to 
do is make sure that people don't even have an option. In life, 
a lot of it is about defaults, so if the defaults are very 
complicated, you are actually going to end up with a degree of 
error that's going to be very high.
    Second, in terms of real time, we should actually try to 
get machine-to-machine interactions where possible. So, in a 
credit card case, imagine if we had to ask everybody for every 
credit card transaction to go and to enter it on some 
centralized system. It would be burdensome, you would spend 
more money actually entering that data than you would 
generating value out of that data.
    Mr. Lankford. We had the same issue and the agencies were 
terrific to be able to respond to our requests for additional 
information on processes and systems and what's in place and I 
do want to thank all the agencies because I'm sure that was 
very time consuming.
    One of the things that came out was that there was a lot of 
manual input still of data. How do we get through that because 
that's where we get a lot of inaccuracies, that's where it 
takes a month to be able to get information. In this current 
time, especially with the budget issues, we're dealing with 
accurate, immediate data is very important that we can get and 
then generally reducing the number of mistakes. How do we start 
working through that process so there is fewer manual input and 
more automatic like what you're mentioning?
    Mr. Kundra. So, I think part of what the President has done 
with the Executive order that sets up the Government 
Accountability and Transparency Board is actually going to be 
to do a total reset in terms of how the government is operating 
when it comes to transparency. What I mean by that is there is 
a simple question before us which is that if the Treasury 
Department is actually writing most of the checks and literally 
before a check is issued, the Treasury Department can have an 
Internet payment portal that allows you to get that data right 
from where the checks are being issued. On the manual side, 
that is a more complicated issue and what I mean by that is if 
you look at contracts, for example, there are certain agencies 
when you look at the pre-award phase, where they are writing 
the RFP and then they put the RFP on the street, then they make 
an award and then thy've got to manage that contract. Agencies 
at a different or a very different evolutionary cycle when it 
comes to some of their processes are end-to-end paper, or some 
of them actually go from paper they go to digital and others 
are all end-to-end electronic.
    So, the way we have to attack this problem is two pronged. 
One is go to the golden source which would be creating some 
type of Internet payment portal so the default is just digital. 
We know somebody is writing the check, why aren't we just going 
to them? Why are we asking the recipient to fill in all this 
paperwork when the government is the one that's issuing the 
check? Second would be to modernize on the back end some of 
these outdated systems that are paper-based.
    Mr. Lankford. Thank you.
    And with that, I am going to pass on 5 minutes to Mr. 
Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And of course votes have now been called.
    Mr. Lankford. I'm going to make a quick comment and not 
take up your time. We will go through the votes being called. 
It should take about 20 minutes for this first series of votes. 
I want to make sure we get through all three of us that are 
here to be able to do that and then we'll probably buzz back 
off and we'll try to evaluate from there.
    Mr. Connolly. It was my understanding Mr. Chairman that 
there will only be one series of votes.
    Mr. Lankford. Right, but the first one is a 15 minute vote, 
so we will make sure all three of us get our questions in.
    Mr. Connolly. Well, I won't be back, so perhaps you will 
indulge me.
    Mr. Lankford. Is that a promise?
    Mr. Connolly. I am going to leave you guessing, at any 
rate, but thank you.
    And, I am going to urge you to please to make concise 
answers because there is an issue of time.
    One of the things Mr. Willemssen, you focused on and so 
have you about transparency and accountability and how the IT 
Dashboard has really helped. And I assume, from your point of 
view, all of your point of view, it's unprecedented in terms of 
transparency and accountability in the Federal Government, 
would you agree?
    [Chorus of agreement.]
    Mr. Connolly. I make that point because we sometimes on 
this committee, not the subcommittee, but on the committee, the 
full committee, we hear statements about how the lack of 
transparency by the Obama administration but as a matter of 
fact, frankly, this tool is unprecedented and there is lots of 
transparency and accountability.
    Now, I headed up a very large government for 5 years and 
one of the concerns I always had about IT investments was 
absolutely transparency and accountability are very important 
from a public policy point of view and how we serve the public, 
but we have to have metrics to go beyond that. What about 
productivity improvement?
    And so my question to especially Mr. Kundra and Mr. 
Willemssen is how have we used these tools to improve the 
efficiency of delivery of services? Are we in fact achieving 
productivity gains in the public sector with these massive 
investments in IT and shouldn't we, if we don't?
    Mr. Willemssen. I would say from an efficiency perspective, 
one of the great benefits of the Dashboard is the fact that it 
can identify governmentwide investments in similar functions so 
that you can potentially look for duplication that could 
potentially be eliminated and save money.
    Mr. Connolly. But are we doing it?
    Mr. Willemssen. The administration is in the process of 
doing that. It is a bit of a carryover from the prior 
administration's line of business effort to try to look at 
investments across agencies and instead of agencies rebuilding 
and reinventing the wheel, trying to reuse consistent with one 
of Vivek's 10 points, trying to reuse what's already out there 
rather than rebuild and reinvest and a lot more money being 
spent to do something that is already working well.
    I will let Vivek speak for himself. I think they are in the 
process of doing that. We would like to see a litte bit more.
    Mr. Connolly. Vivek. I mean Mr. Kundra.
    Mr. Kundra. We see major results. For example, through 
these tools, we have been able to identify the fact that we 
went from 432 data centers to 2,000-plus data centers in a 
decade, and we're cracking down on those data centers, shutting 
down 800. We have already shut down 67 data centers and are on 
track to shut down 137.
    But in terms of productivity, we have also seen as a result 
of this, we were able to see where we had inefficient 
technology such as collaboration. So GSA, for example, migrated 
17,000 employees to a system and so did USDA, saving not only 
$42 million but using modern technologies to accelerate 
business processes. And the VA has some really good examples 
when it comes to veterans benefits and cutting down the time it 
takes, actually numbers of days, and I'll let Roger speak to 
that, through these investments as far as when we are issuing 
those benefits.
    Mr. Connolly. Before Roger does, you mentioned the data 
centers and how they exploded sort of without rhyme or reason, 
and you have called for a 40 percent reduction by 2015. I have 
introduced a bill, the Federal Cost Reduction Act, to make that 
statutory, just in case other people go away, and would double 
that goal over the next 5 year period. Is that a piece of 
legislation you think would be helpful in this regard?
    Mr. Kundra. The data center provisions, absolutely, 
especially if we look at the ultimate vision, from my 
perspective, is that we would end up as a nation basically 
building three digital Ft. Knox's, three major data centers as 
we think about it. There is no reason to have over 2,000 data 
centers across the Federal Government.
    Mr. Connolly. Mr. Chairman, I am going to ask if you would 
be willing to indulge me by giving me one extra minute because 
I am not coming back.
    Mr. Lankford. Without objection.
    Mr. Connolly. I thank my colleagues.
    Thank you and Mr. Chairman, I hope you will join us in that 
legislative effort because I think it is a good bipartisan 
piece of legislation that could actually save us some money and 
codify what Mr. Kundra has so ably begun.
    Mr. Baker, I didn't want to cut you off, you wanted to talk 
about the Veterans Administration experience?
    Mr. Baker. I would just point out one thing with the system 
we built for the new GI bill, if you recall that's putting now 
hundreds of thousands of veterans into college, billions of 
dollars. The new system that we introduced and that changed the 
processing time for the main claim when veterans go into 
college from 42 minutes to 7 minutes. That reduction was 
hundreds of head count in processing those claims, and clearly 
you can equate the reduction in the head count needed to the 
number of people, I'm sorry the dollars needed to process those 
claims.
    Mr. Connolly. Thank you. I think I have with your 
indulgence, Mr. Chairman, Mr. Kundra, you talked about a new 
app economy. What did you refer, what did you mean by that 
reference?
    Mr. Kundra. What I mean by the new app economy is that the 
390,000 plus datasets that are out there in the public domain 
now will allow us to tap into the ingenuity of the American 
people in ways that we haven't before. We actually worked with 
Congress on the America Competes Act which allows every agency 
now to issue challenges up to $50 million. So the old path of 
acquiring technology was only going through a grants process or 
through a long, drawn out procurement process.
    Now an agency can go out there and say for 5 million or 10 
million, here is a problem that we are trying to solve and 
we're looking for applications rather than RFPs. Already we 
have seen, for example, is that developers have taken data that 
comes out of the Consumer Financial Protection Agency and 
created apps that allow you to track what is going on within 
your specific location.
    And we have also seen in terms of apps apps that have been 
built that allow you to see based on your iPhone, you can scan 
a product and see whether it has been recalled or not to apps 
that allow you see on a real time basis what the closest train 
station is sent to you and when trains are coming in both 
directions to stimulus funding and where it is being spent.
    So huge, huge improvements in terms of innovative apps that 
are being created. Hundreds of these have already been built.
    Mr. Connolly. Thank you and thank you, Mr. Chairman, for 
your courtesy, and you, Mr. Farenthold, I appreciate it.
    Mr. Lankford. Thank you.
    Mr. Farenthold, you are recognized for 5 minutes.
    Mr. Farenthold. Thank you very much. I;m going to be quick. 
We actually have nine votes it looks like here, so it may be a 
while before we are able to get back.
    Mr. Kundra, my question to you is, as we are starting to 
gather all of this data and strive toward real time, what sort 
of effort is being taken into data analysis to detect waste, 
fraud and abuse and to find for instance on a list of payees, 
the outliers?
    Mr. Kundra. So, one of the lessons learned through the 
Recovery Act implementation was to actually use these forensic 
technologies and business intelligence platforms. So there was 
an entity called Pelletier that mined a lot of data and allowed 
us to see how we could slice and dice and cube through 
terabytes and petabytes of data. We are looking at the same 
technologies and applying them now to health care and other 
domains across the Federal Government, and the Recovery 
Operations Center is actually the model that is being scaled.
    Mr. Farenthold. Thank you very much and Mr. Baker, we do a 
lot of case work with the Veterans Administration in the 
district office and a constant complaint is the length of time 
some of this stuff takes to process. I notice you had one 
example of how you are getting some processes down to the 
minutes. That isn't true throughout the agency. I'm hearing 
reports of years from someone coming out of DOD before they 
actually get into your data base where you all aren't getting 
the data or they are not being able to get their exams quick 
enough. What is being done to address those problems?
    Mr. Baker. Thank you Congressman, we have, and are working 
a major investment in the IT side to turn that entire paper-
bound process for benefits administration at the VA into a 
paperless process that will then begin to allow us to really 
work on the business processes there. We want to do the same 
thing with compensation and pension benefits which is exactly 
what you are talking to, that we did with education benefits 
which is fully automate them, and take those processes and get 
a sixfold improvement on the processing time for those.
    Mr. Farenthold. Do you have a timeframe on getting 
something like that implemented?
    Mr. Baker. Yes, we will implement in 2012. We have been on 
the path of that implementation for about 18 months at this 
point. Full implementation of it will occur during 2012.
    Mr. Farenthold. Alright that's basically all I've got. I 
will yield back the remainder of my time.
    Mr. Lankford. Thank you. Mr. Barwell, let me ask you a 
quick question. Not to mention the great names for your system, 
the STARS and the STRIPES system, but integrating that with 
Treasury and with OMB, is that a reproducible system that can 
be done in other agencies? How long did it take to process that 
and how is that working?
    Mr. Barwell. The FACTS I and FACTS II systems have been in 
operation for some time now, I am not sure of the exact date 
when this came in, but the procedures for uploading financial 
information into FACTS I and FACTS II are well established and 
the process is pretty mature. I think it is applied 
consistently across the government too.
    Mr. Lankford. Mr. Kundra, are all other agencies 
experiencing that same type of system where it's immediately 
put into their system and then it's populated out as well and 
it's that integrated and seamless or are there other agencies 
that are not experiencing that same kind of success?
    Mr. Kundra. Now I wish that was the case across the entire 
Federal Government but given that different agencies have 
either successfully implemented whether it's financial systems 
or contracting systems versus others who frankly, we've have 
had to terminate those systems because after years and years of 
attempting, we continue to throw in millions of dollars and 
nothing was really happening.
    Part of what we are looking at is making sure that across 
the entire Federal Government, that we demand that within a 6-
month period, there be meaningful functionality if an IT 
project is started. The Department of Defense, for example, 
spent 12 years and $1 billion on an integrated human resource 
system that had to be terminated because it didn't operate and 
we kept throwing good money after bad money.
    Some of these departments don't have the capacity frankly 
to execute or deliver, so the leapfrog for us is actually going 
to be literally moving to Cloud solutions. So the challenge 
before the private sector is to actually help us stand up 
Cloud-based systems so that on day one, we can start using them 
rather than having to wait 12 years before we can use them.
    Mr. Lankford. Obviously that is unacceptable in a 
technology environment to wait 12 years to be able to integrate 
that. That is a lot of different versions and languages and 
everything else you are going to work through in that process.
    Data.gov and USASpending.gov are some great ideas. They 
have good information that's being loaded onto them. Obviously, 
we need much faster information, we need to make sure that 
information is accurate. Let me just ask a quick question about 
Data.gov. What is your goal for the actual data that's on 
there? Because the variety of data in the different agencies is 
plentiful. Some of them have quality data, some of them have 
very old data, some of them have data that no one's going to 
look for but there is other data they would love to see.
    The basics for me is I think everyone should be able to go 
to not only an agency Web site but also a central location and 
see how many different departments, how many people work in 
that department, what is the budget of that department, what 
are they accomplishing, what are the documents that can come 
out of that to be able to show just the basics. If they see a 
name that's a bureau, they should be able to search for that, 
find it, get the data, find out more about it, rather than it 
is hidden out there somewhere and you can't even discover what 
it is. Your goal for Data.gov?
    Mr. Kundra. Sure, so let me lift up in terms of a single 
entry for all Americans is actually USA.gov. That platform 
should become the single platform across the entire U.S. 
Government. Today, what we realized is a lot of thugs who come 
onto USA.gov they are actually looking for driver's licenses or 
passports. And so these are State services or they are Federal 
services, and the idea is that for an average American person 
they shouldn't have to navigate the Federal bureaucracy to 
figure out what service they want. They should be able to just 
go on USA.gov, search, which is what they can do today and find 
that information.
    The goal for Data.gov, the dream there is that we want to 
create this platform which we have, with 390,000 data sets, but 
it should be millions of data sets.
    Mr. Lankford. Right, because much of that data is very old 
that is on there.
    Mr. Kundra. Some of it is real like the FAA data. In other 
cases, it is old data from Medicare/Medicaid, but we believe 
there is a billion dollar opportunity for entrepreneurs to 
create applications and build a data curation layer. I will 
give you one example.
    There is a site called Hospitalcompare.gov. Most people 
don't even know what that site is and never really visited it. 
As soon as we took that data and democratized it, Bing decided 
to take that data and said, it is interesting, this is a very 
rich data set. It actually has the name of hospitals, how 
patients rate it, the outcome based on the surgeries or 
operations.
    So now what happens if you go to Bing.com and do a search 
for Georgetown Hospital or George Washington Hospital, right on 
that search box it will show you what do patients think of 
Georgetown Hospital, what do they think in terms of outcomes 
and ratings. That is the vision, which is to democratize that 
data, allow the private sector to build innovative applications 
and generate new jobs.
    Mr. Lankford. Which, by the way, we would completely concur 
with that. That is the twofold that I was talking about before, 
the American people being able to see it, research it, pull it 
down and democratize the data and then decisionmakers be able 
to get very accurate, fast information and know it is reliable.
    I do appreciate your time. I'm going to do this considering 
the votes are going to take a little over an hour so it looks 
like I'm going to go ahead and dismiss this hearing and let you 
all be able to get back to your lives. Your written testimony 
will go in the permanent record. Obviouisly, there were 
multiple Members that couldn't make it based on a hearing that 
just came and just finished up but I don't want to be able to 
keep you all waiting that long period of time.
    If we have additional questions, do you mind if we write 
you a quick question and be able to follow up on that? Let the 
record show everyone answered in the affirmative. I do 
appreciate that and we will try to follow up quickly if we have 
additional questions.
    With that, this meeting is adjourned.
    [Whereupon, at 2:33 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
